No. 21-276

 

In THE
Supreme Court of the Anited States

SAFEHOUSE,
Petitioner,

v.
UNITED STATES DEPARTMENT OF JUSTICE, et al.,
Respondents.
f

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Third Circuit

BRIEF OF THE DISTRICT OF COLUMBIA AND
THE STATES OF DELAWARE, ILLINOIS,
MASSACHUSETTS, MICHIGAN, MINNESOTA,
NEW MEXICO, OREGON, RHODE ISLAND,
VERMONT AND VIRGINIA AS AMICI CURIAE
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,187 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 24, 2021.

 

Wilson-Epes Printing Co., Inc.
